TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Taxpayers Continued to Experience
                    Improved Access to Toll-Free Telephone
                     Service During the 2005 Filing Season



                                         September 2005

                              Reference Number: 2005-40-155




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 21, 2005


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION



 FROM:                         Pamela J. Gardiner
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Taxpayers Continued to Experience Improved
                               Access to Toll-Free Telephone Service During the 2005 Filing Season
                               (Audit # 200540011)

 This report presents the results of our review to evaluate the customer service toll-free telephone
 access during the 2005 Filing Season.1 We performed this audit as part of the Treasury Inspector
 General for Tax Administration’s annual reviews of the performance of key customer service
 programs.

 Synopsis
 Each year, millions of taxpayers contact the Internal Revenue Service (IRS) seeking assistance in
 understanding the tax law and meeting their tax obligations by calling the various Customer
 Account Services (CAS) toll-free telephone assistance lines.2 During the 2005 Filing Season, the
 IRS staffed 10,614 Customer Service Representatives at 26 call centers located throughout the
 United States and Puerto Rico, provided taxpayers with effective access to its toll-free telephone
 system, and realized productivity and efficiency gains. Specifically, the IRS planned and met the
 82 percent Customer Service Representative Level of Service goal for the 2005 Filing Season.
 Level of Service is the primary measure of providing taxpayers with access to a live assistor and
 has been consistent over the last three filing seasons.



 1
   The filing season is the period from January through mid-April of each year when most individual income tax
 returns are filed.
 2
   These calls were made to the suite of 17 telephone lines the IRS refers to as “CAS Toll-Free.” Unless otherwise
 specified, all references made in this report to the toll-free telephone system performance data are for CAS Toll-Free
 telephone assistance lines through April 16, 2005, and comparable prior years.
                       Taxpayers Continued to Experience Improved Access to
                      Toll-Free Telephone Service During the 2005 Filing Season



In preparation for the 2005 Filing Season, the IRS planned for 38.8 million taxpayer calls. This
represented a 21.8 percent decrease from the 2004 Filing Season and was based on historical data
and workplan assumptions. For the 2005 Filing Season, the IRS achieved 105 percent of its
planned assistor services and 90 percent of its planned automated services. We believe the IRS
did not achieve the planned services for automated calls because of the increase in taxpayers’ use
of the IRS Internet web site to check the status of their refunds.
Assistors answered 14.8 million calls, or 4 percent more calls than planned, using 95 percent of
the planned resources. In addition, assistors answered more calls per Full Time Equivalent3 than
in the 2004 Filing Season. One factor that contributed to this increase is the Assistor
Availability, which measures the amount of time assistors are idle or available to answer calls.
When Assistor Availability is low, assistors’ time is being productively used and the cost of
providing toll-free telephone services decreases. Compared to the 2004 Filing Season, the
Assistor Availability rate decreased 42 percent.
For the 2005 Filing Season, the IRS experienced 1.5 million (22 percent) fewer primary
abandons compared to the 2004 Filing Season. Primary abandons may occur when taxpayers:
(1) realize they dialed the wrong number and immediately disconnect, (2) disconnect before
completing an automated routing script, or (3) choose a menu option to use an automated service
but disconnect before completing the service. Primary abandons can lead to taxpayers having to
call back or possibly not receiving assistance at all because they find the toll-free telephone
system difficult to use.
During Fiscal Year 2005, the IRS implemented a new initiative, the Internet Service Node, to
improve taxpayer access to the toll-free telephone assistance lines and help identify and correct
high primary abandons. With the implementation of the Internet Service Node, the IRS now has
detailed data about where and when taxpayers abandon calls. In the past, the IRS did not have
any data on the taxpayers’ experience when navigating through the automated menu (i.e., the
IRS could not determine where taxpayers disconnected). By analyzing these data, the IRS has
information about taxpayer behavior while using the automated menu and can begin to determine
why the taxpayers disconnected. Furthermore, changes to the automated menu, which in the past
could take months, can now be completed internally within days.
While the IRS did achieve its Level of Service goal, several performance measures declined
during the 2005 Filing Season. For 4.3 million tax law and 9.3 million account-related assistor
answered calls, the percentage of taxpayers that received services within 30 seconds (Assistor
Response Level) decreased and the average number of seconds taxpayers waited in the queue
before receiving services (Average Speed of Answer) increased. In addition, the Secondary


3
  A Full Time Equivalent is a measure of labor hours. One Full Time Equivalent is equal to 8 hours multiplied by
the number of compensable days in a particular fiscal year. For Fiscal Year 2005, 1 Full Time Equivalent is equal to
2,088 hours.
                                                                                                                  2
                    Taxpayers Continued to Experience Improved Access to
                   Toll-Free Telephone Service During the 2005 Filing Season



Abandon Rate (in which a taxpayer navigated the automated menu and then disconnected while
waiting to speak to an assistor) increased from the 2004 Filing Season.

Recommendations
The primary focus of this audit was to monitor and report the IRS’ toll-free telephone system
performance during the 2005 Filing Season. As a result, we are making no recommendations in
this report.

Response
IRS management agreed with our assessment of the toll-free telephone service during the
2005 Filing Season and was pleased with our recognition of their positive efforts.
Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report results.
Please contact me at (202) 622-6510 if you have questions or Michael R. Phillips, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 927-0597.


Attachment




                                                                                                3
                           Taxpayers Continued to Experience Improved Access to
                          Toll-Free Telephone Service During the 2005 Filing Season




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Improvements in Accessing the Toll-Free Telephone Service
          Continued in the 2005 Filing Season ............................................................Page 5

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Customer Account Services Toll-Free
          Telephone Service Individual Product Lines for
          the 2004 and 2005 Filing Seasons ................................................................Page 18
          Appendix V – Management’s Response to the Draft Report .......................Page 20
                        Taxpayers Continued to Experience Improved Access to
                       Toll-Free Telephone Service During the 2005 Filing Season




                                              Background

Each year, millions of taxpayers contact the Internal Revenue Service (IRS) seeking assistance in
understanding the tax law and meeting their tax obligations by calling the various toll-free
telephone assistance lines, accessing the IRS Internet web site (IRS.gov), or visiting an IRS
Taxpayer Assistance Center. Although accessing IRS.gov is the single most frequent means of
contacting the IRS for taxpayers, the second most frequent means is calling the toll-free
telephone assistance lines.
Taxpayers called the IRS Customer Account Services (CAS) Toll-Free telephone assistance lines
approximately 41.8 million times1 during the 2005 Filing Season.2 Of these, 16.8 million were
made to the toll-free telephone number, 1-800-829-1040, the telephone number taxpayers call to
ask tax law or account-related questions. In addition, over 9.4 million calls were made to the
IRS automated TeleTax system3 that provides recorded tax law and refund information. Figure 1
shows the number of calls made to the CAS Toll-Free telephone assistance lines and the
14.8 million calls answered during the 2005 Filing Season.

                    Figure 1: IRS Handled Calls for the 2005 Filing Season




              Source: IRS Enterprise Telephone Data Warehouse.



1
  These calls were made to the suite of 17 telephone lines the IRS refers to as “CAS Toll-Free.” Unless otherwise
specified, all references made in this report to the toll-free telephone system performance data are for CAS Toll-Free
telephone assistance lines through April 16, 2005, and comparable prior years.
2
  The filing season is the period from January through mid-April of each year when most individual income tax
returns are filed. All references to the 2005 Filing Season made in this report, unless otherwise specified, are for the
period from January 1 to April 16, 2005.
3
  The TeleTax system allows taxpayers to check the status of their current year refunds or listen to recorded tax
information on a variety of topics.
                                                                                                               Page 1
                        Taxpayers Continued to Experience Improved Access to
                       Toll-Free Telephone Service During the 2005 Filing Season



Taxpayers that call the IRS can receive automated services or choose to speak to a live assistor,
called a Customer Service Representative. For taxpayers using a touchtone telephone, the
automated services Telephone Routing Interactive System uses recorded information and
interactive applications to provide automated refund status information, permit taxpayers to
obtain a payoff amount for an outstanding balance due, or enable taxpayers to set up an
installment agreement to settle a delinquent tax debt. For example, when calling
1-800-829-1040 with a tax law or account-related question, the taxpayer is provided, in English
or Spanish, four touchtone main automated menu options with secondary options:
    1. Preparing or filing individual income tax returns. This option provides the taxpayer with
       a second automated menu from which to choose the following options: (a) ordering tax
       forms or publications, (b) finding addresses to mail tax returns or payments to the IRS or
       (c) getting help with other tax questions.
    2. Requesting information on a tax refund or personal tax account. This option provides the
       taxpayer with a second automated menu from which to choose the following options:
       (a) questions concerning a refund or (b) questions concerning a personal account.
    3. Using the business and specialty tax line or obtaining the address for the IRS Internet
       web site.
    4. Repeating the above options.
If the taxpayer does not select an option or is calling from a rotary telephone and is unable to
select a touchtone option, the same script is repeated providing voice response options. If the
taxpayer selects an invalid option, he or she is transferred to an IRS employee (screener), who
screens and transfers the call to the appropriate assistor to answer the taxpayer’s question.
Assistors are trained and certified for each current filing season on specific applications.4
Assistors answer taxpayer questions involving tax law and other related tax account conditions
such as refunds, balance due billing activity, and changes to the amount of taxes owed. For
example, if an individual taxpayer calls to find out where to mail a tax return, the call would be
routed to an assistor who has been trained to handle IRS procedural issues for individual
taxpayers. If a business taxpayer calls to find out the taxes due on a business account, the call
would be routed to an assistor who handles balance-due questions for the business taxpayer.
During the 2005 Filing Season, the IRS staffed 10,614 assistors to answer the telephones at
26 call centers5 located throughout the United States and Puerto Rico. The Director, CAS, in the
Wage and Investment Division manages tax law and account telephone calls for Customer


4
  The CAS Toll-Free telephone assistance lines are further subdivided into categories called “applications.” Each
application is staffed with a group of assistors that have received specialized training to assist taxpayers with
specific tax issues.
5
  Only eight call centers handle tax law questions.
                                                                                                            Page 2
                     Taxpayers Continued to Experience Improved Access to
                    Toll-Free Telephone Service During the 2005 Filing Season



Account Services through the Joint Operations Center. Figure 5 on page 8 shows the percentage
of calls handled during the 2005 Filing Season.
The Joint Operations Center serves as the central control organization for all of the IRS’ toll-free
telephone call routing. It uses intelligent call management software to control and route calls to
call centers and assistors who have the skills and are available to answer the calls. In addition, it
monitors the call centers for abnormally high queue (wait) times and/or number of assistors that
are idle or available to answer calls. When this occurs, actions are taken to modify routing
scripts and balance the workload and associated staffing.
The Joint Operations Center has the ability to trace one call from the time it is received to the
time the call is terminated but does not do so because of the large volume of calls the IRS
receives. The IRS does, however, monitor key segments in the life of a call. For example, from
the time the call was answered by a screener to when it was transferred to an assistor, or from the
time the call was answered by an assistor to the time the taxpayer was transferred or the call
ended. The IRS believes this provides indications of the type of service the average taxpayer
receives.
Providing quality customer service operations was one of the major management challenges the
IRS faced during the 2005 Filing Season. One of the IRS’ major strategies for Fiscal Year 2005
is to reduce taxpayer burden by improving the quality and efficiency of service delivery. The
goal is to provide prompt and courteous responses to all requests for assistance. To ensure a
successful filing season, the Director, Accounts Management, annually certifies that all elements
of the filing season certification document are incorporated into the overall planning process and
that all items will be monitored for progress and timely delivery.
According to the IRS Strategic Plan 2005–2009, the IRS measures success in improving taxpayer
service by the:
   •   Assistor Level of Service – The relative success rate of taxpayers calling for assistance
       and seeking services from an assistor. Part of the calculation of results for this measure
       includes the percentage of call attempts made by taxpayers compared to the number of
       calls answered by the IRS.
   •   Timeliness of Responding to Customer Inquiries – Measurements of the time taxpayers
       wait on the telephone when calling the IRS about their accounts or inquiring about tax
       laws when preparing tax returns; the time from account creation to disposition for
       taxpayers needing account resolution assistance; and the response time for those
       taxpayers who communicate electronically with the IRS.
This review was performed at the Joint Operations Center in Atlanta, Georgia, during the period
January through June 2005. The audit was performed in accordance with Government Auditing
Standards. The scope of this audit did not include the quality of toll-free telephone services.
The performance data we evaluated were provided by IRS management information systems.

                                                                                              Page 3
                    Taxpayers Continued to Experience Improved Access to
                   Toll-Free Telephone Service During the 2005 Filing Season



We did not verify the accuracy of these data. Detailed information on our audit objective, scope,
and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                          Page 4
                     Taxpayers Continued to Experience Improved Access to
                    Toll-Free Telephone Service During the 2005 Filing Season




                                  Results of Review

Improvements in Accessing the Toll-Free Telephone Service
Continued in the 2005 Filing Season
During the 2005 Filing Season, the IRS provided taxpayers with effective access to its toll-free
telephone system and realized productivity and efficiency gains. This effective performance was
evident in many of the measures the IRS uses to monitor its call center operations. Specifically,
the IRS planned and met the 82 percent Customer Service Representative Level of Service goal
for the 2005 Filing Season. Level of Service is the IRS’ primary measure of providing taxpayers
with access to a live assistor. Figure 2 shows the Level of Service for the last four filing seasons,
during which the Level of Service achieved has been consistent over the last three filing seasons.


                     Figure 2: Comparison of the Level of Service
                           for the 2002–2005 Filing Seasons

               CAS Toll-Free            2002        2003         2004     2005

               Level of Service        66.6%       82.4%         84.7%    81.7%
              Source: IRS Enterprise Telephone Data Warehouse.

Customer satisfaction surveys continue to show positive results. However, taxpayers
experienced an increase in the number of blocked calls. A blocked call is one that cannot be
connected immediately because either no circuit is available at the time the call arrives (i.e., the
taxpayer receives a busy signal) or the system is programmed to block calls from entering the
queue when the queue backs up beyond a defined threshold (i.e., the taxpayer receives a recorded
announcement to call back at a later time). The IRS refers to the latter type of blocked call as a
courtesy disconnect. Figure 3 shows the number of blocked calls for the last four filing seasons.




                                                                                              Page 5
                        Taxpayers Continued to Experience Improved Access to
                       Toll-Free Telephone Service During the 2005 Filing Season



                       Figure 3: Comparison of Number of Blocked Calls
                                for the 2002–2005 Filing Seasons6

        CAS Toll-Free                             2002              2003             2004             2005

        Busy Signals                            3,665,180           239,911          147,200          286,517
        Courtesy Disconnects7                              -        832,610          591,993          605,252
        Selected Expanded Access8               2,924,830           228,507                 72                 -

        Total Blocked Calls                     6,590,010         1,301,028          739,265          891,769
    Source: IRS Enterprise Telephone Data Warehouse.


From the 2004 to 2005 Filing Season, the data in Figure 3 shows the IRS had an increase in:
    •     Busy signals of 94.6 percent.
    •     Courtesy disconnects of 2.2 percent.
    •     Total blocked calls of 20.6 percent.
The IRS stated the increase in busy signals is attributed to the November 2004 implementation of
the Internet Service Node. This new system replaced the IRS’ toll-free carrier routing scripts
that recognized very short call attempts (0-2 seconds) as primary abandons.9 Currently, these
same types of calls are captured as busy signals. Despite this increase, the percentage of busy
signals remains less than 1 percent of total taxpayer calls.
For courtesy disconnects, there was an approximate 2 percent increase in volume. The IRS
attributed much of this increase to taxpayers that chose the menu in Spanish. To accommodate
this increase in volume, the IRS made the business decision to increase the volume of taxpayers
receiving a courtesy disconnect. The slight increase in the overall courtesy disconnect volume
resulted in substantial improvement to the bilingual taxpayer experience by improving the
Average Speed of Answer by a cumulative 376 seconds and the Spanish secondary abandon rate
by 15 percentage points. Despite the minimal increase, courtesy disconnects account for only
1 percent of the total call attempts for the CAS Toll-Free telephone assistance lines.

6
  Due to changes in the methodology the IRS used to capture toll-free data, the totals for previous filing seasons in
this chart may not equal the totals presented in previous Treasury Inspector General for Tax Administration reports.
7
  Courtesy Disconnects were introduced in Fiscal Year 2003.
8
  The Selected Expanded Access is a system that allows a taxpayer to receive automated services in lieu of a busy
signal during periods of peak demand. It was discontinued in Fiscal Year 2005 because network prompting now
identifies up front where to route the calls and sends them directly to assistors.
9
  The IRS refers to a call that disconnects before reaching the queue as a primary abandon. A call that reaches the
queue and then disconnects is classified as a secondary abandon.
                                                                                                              Page 6
                        Taxpayers Continued to Experience Improved Access to
                       Toll-Free Telephone Service During the 2005 Filing Season



The IRS planned for fewer taxpayer calls and fewer services

In preparation for the Fiscal Year 2005 Filing Season, the Joint Operations Center planned for
38.8 million taxpayer calls, a 21.8 percent decrease from the 2004 Filing Season. This estimate
was based on historical data and workplan assumptions. The Joint Operations Center planned
for fewer calls because it expected more taxpayers to choose other methods of obtaining
assistance (i.e., through the use of electronic methods such as accessing IRS.gov). With the
expected decrease in calls, the IRS anticipated taxpayers would require fewer services.
The IRS planned to provide approximately 2 million fewer toll-free telephone assistor services
and 4.5 million fewer automated services to taxpayers. The IRS defines a service as an issue or
multiple issues handled by a single assistor. In general, one service equates to one or more
taxpayer questions answered by one assistor. For example, one call might result in the IRS
counting three services provided for one taxpayer: (1) having a tax law question answered and
requesting a form (two questions = one service by one Tax Law assistor), (2) status of an
Employer Identification Number (one service by a Business assistor), and (3) checking the status
of the customer’s individual account (one service by an Individual Account assistor). For the
2005 Filing Season, the IRS achieved 105 percent of its planned assistor services and 90 percent
of its planned automated services. Figure 4 shows the number of CAS Toll-Free telephone
services provided for the last four filing seasons.

                Figure 4: Comparison of CAS Toll-Free Telephone Services
                        Provided for the 2002–2005 Filing Seasons10

     CAS Toll-Free                                2002               2003               2004               2005

     Automated Services
                                               36,348,921         25,818,334          25,732,372 19,131,884
     Provided11
     Assistor Services Provided                18,748,935         17,599,403          18,606,483 17,394,240

     Totals                                    55,097,856         43,417,737          44,338,855 36,526,124
Source: IRS Enterprise Telephone Data Warehouse.

While the IRS exceeded its plan for assistor services provided, we believe the decrease from the
2002 Filing Season is attributed to the increase in taxpayers’ use of the Internet Refund Fact of
Filing (IRFOF) application. This application allows taxpayers to check the status of their tax


10
   Due to changes in the methodology the IRS used to capture toll-free data, the totals for previous filing seasons in
this chart may not equal the totals presented in previous Treasury Inspector General for Tax Administration reports.
11
   The Automated Services Provided does not include the number of services provided by the Internet Refund Fact
of Filing application.
                                                                                                               Page 7
                        Taxpayers Continued to Experience Improved Access to
                       Toll-Free Telephone Service During the 2005 Filing Season



refunds. During the 2005 Filing Season, approximately 20.9 million taxpayers accessed the
IRFOF application. This represented a 15.5 percent increase from the 2004 Filing Season (from
18.1 to 20.9 million).
Assistors answered more calls than planned using less planned resources

For the 2005 Filing Season, assistors answered 14.8 million calls, 4 percent more than planned,
using 95 percent of the planned resources. Each year, the IRS allocates Full Time Equivalents
(FTE)12 to the Accounts Management function for the operation of the toll-free telephone
program. Based on these budgeted resources, the IRS can plan for how many taxpayer calls will
be answered by assistors and how many services taxpayers may need during the calls. These
data are used to set the Level of Service goal for the filing season. Figure 5 shows the
CAS Toll-Free telephone service product lines and the number of assistor calls answered.

              Figure 5: CAS Toll-Free Telephone Service Product Lines and
                Number of Calls Answered13 During the 2005 Filing Season


                                               Business Master File
                            Refund Hotline     Customer Response
                            717,890 (5%)                                   Remaining 10 CAS
                                                  628,455 (4%)
                                                                         Toll-Free Product Lines
          Small Business/                                                     623,158 (4%)
          Self-Employed
       Individual Master File
        Customer Response
                                                                                Individual Income
           759,301 (5%)
                                                                                  Tax Services
                                                                                7,084,769 (48%)
        Wage and Investment
        Individual Master File
         Customer Response
          1,411,687 (10%)
                        Refund Call Back
                        1,703,810 (12%)
                                                  Business & Specialty
                                                     Tax Services
                                                   1,874,459 (13%)


     Source: IRS Enterprise Telephone Data Warehouse.




12
   An FTE is a measure of labor hours. One FTE is equal to 8 hours multiplied by the number of compensable days
in a particular fiscal year. For Fiscal Year 2005, 1 FTE is equal to 2,088 hours. If one assistor worked the full year,
the assistor could answer 5,454 calls.
13
   Percentages do not add to 100 percent due to rounding.
                                                                                                               Page 8
                                                                Taxpayers Continued to Experience Improved Access to
                                                               Toll-Free Telephone Service During the 2005 Filing Season



Productivity and efficiency gains were realized

Assistors answered more calls per FTE compared to the 2004 Filing Season. Since the
2003 Filing Season, the IRS has experienced a steady decrease in the number of FTEs budgeted
for the toll-free telephone program. However, over the same time period the number of calls
answered per FTE has increased. To put this in perspective, assistors answered 5,171 calls per
FTE in the 2002 Filing Season compared to 5,454 calls in the 2005 Filing Season. In addition,
Assistor Availability, which measures the amount of time that assistors are idle or available to
answer calls, declined 42 percent compared to the 2004 Filing Season. When Assistor
Availability is low, assistors’ time is being productively used and the cost of providing toll-free
telephone services decreases. Figures 6 and 7 show a comparison of calls answered based on
FTEs and Assistor Availability for the last four filing seasons.

                                                                   Figure 6: Comparison of Calls Answered
                                                                  per FTE for the 2002–2005 Filing Seasons14


                                                       6,000                                                                           3,000
                                                                               2,966
                                                                                                        5,444        5,454
                                                       5,500
                                                                  5,171               5,053
                                                       5,000
             Calls Answered Per Full Time Equivalent




                                                                                                      2,924                            2,900
                                                       4,500

                                                       4,000     2,862


                                                                                                                                               Full Time Equivalent
                                                       3,500                                                                           2,800

                                                       3,000

                                                       2,500                                                                           2,700
                                                       2,000                                                         2,714

                                                       1,500
                                                                                                                                       2,600
                                                       1,000

                                                        500

                                                          0                                                                            2,500
                                                                   2002              2003                2004        2005
                                                                  Calls Answ ered Per Full Time Equivalent      Full Time Equivalent

           Source: IRS Enterprise Telephone Data Warehouse.


14
  Due to the 2005 Filing Season ending 1 day earlier than the 2004 Filing Season, the totals for previous filing
seasons in this chart may not equal the totals presented in previous Treasury Inspector General for Tax
Administration reports.
                                                                                                                                                                      Page 9
                                                               Taxpayers Continued to Experience Improved Access to
                                                              Toll-Free Telephone Service During the 2005 Filing Season



                                                             Figure 7: Comparison of Calls Answered
                                                     and Assistor Availability for the 2002–2005 Filing Seasons15

                                                     16,000                                                                   15.0%


                                                     15,800
                                                                                             15,915
                                                               11.0%              11.2%
            Assistor Answered Calls (in Thousands)




                                                     15,600




                                                                                                                                      Assistor Availability
                                                     15,400                                  9.0%                             10.0%


                                                     15,200

                                                     15,000
                                                                                                                  5.2%
                                                     14,800                       14,987                                      5.0%


                                                     14,600      14,799                                          14,804

                                                     14,400

                                                     14,200                                                                   0.0%
                                                                 2002              2003      2004                  2005
                                                                  Assistor Answ ered Calls            Assistor Availability

         Source: IRS Enterprise Telephone Data Warehouse.


The IRS implemented a new initiative to improve access that will help identify and
correct high primary abandons

Each filing season, millions of taxpayers that call the IRS disconnect (i.e., hang up) early in their
calls prior to receiving assistance. The IRS refers to calls that disconnect before reaching the
queue as primary abandons. Primary abandons may occur when taxpayers: (1) realize they
dialed the wrong number and immediately disconnect, (2) disconnect before completing an
automated routing script, or (3) choose a menu option to use an automated service but disconnect
before completing the service.
For the 2005 Filing Season, the IRS experienced 1.5 million (22 percent) fewer primary
abandons compared to the 2004 Filing Season. The number of abandoned calls is directly related

15
  Due to the 2005 Filing Season ending 1 day earlier than the 2004 Filing Season, the totals for previous filing
seasons in this chart may not equal the totals presented in previous Treasury Inspector General for Tax
Administration reports.
                                                                                                                                                              Page 10
                        Taxpayers Continued to Experience Improved Access to
                       Toll-Free Telephone Service During the 2005 Filing Season



to the number of attempted calls taxpayers make. Thus, the IRS measures the number of calls
attempted to calls abandoned. This percentage has decreased from a high of 19.1 percent in the
2002 Filing Season to 12.8 percent in the 2005 Filing Season. Figure 8 shows the number of
primary abandons and total attempts for the last four filing seasons.

                          Figure 8: Comparisons of Primary Abandons
                               for the 2002–2005 Filing Seasons16

     CAS Toll-Free                                    2002             2003            2004             2005

     Primary Abandons                             10,593,981        5,402,495        6,745,735       5,273,708
     Total Attempts                               55,450,114 42,054,628 49,609,768 41,232,421

     Percentage of Primary Abandons
                                                     19.1%            12.8%           13.6%            12.8%
     to Total Attempts
Source: IRS Weekly Enterprise Snapshot Reports.

Primary abandons can lead to taxpayers having to call back or possibly not receiving assistance
at all because they find the toll-free telephone system too difficult to use. When taxpayers have
these types of difficulties in attempting to contact the IRS, the IRS’ strategic goal of improving
taxpayer service is not being met. In completing customer satisfaction surveys during the
2005 Filing Season, taxpayers that called the IRS toll-free telephone system identified “finding
the appropriate menu choice” as one of the IRS’ top improvement opportunities.17 Consequently,
the continued identification and correction of causes for high levels of primary abandons is
necessary.
Prior to November 22, 2004, the IRS did not have data on the taxpayers’ experience when
navigating through the automated menu (i.e., the IRS could not determine where taxpayers
disconnected). With the implementation of the Internet Service Node, the IRS has detailed data
about where and when taxpayers abandon calls. By analyzing these data, the IRS has
information about taxpayer behavior while using the menu and can begin to deduce why the
taxpayer disconnected. Furthermore, changes to the automated menu, which in the past could
take months, can now be completed internally within days.




16
   Due to changes in the methodology the IRS used to capture toll-free data, the totals for previous filing seasons in
this chart may not equal the totals presented in previous Treasury Inspector General for Tax Administration reports.
17
   IRS Customer Satisfaction Survey, Toll-Free Wage and Investment Division National Report, Covering January
through March 2005.
                                                                                                             Page 11
                        Taxpayers Continued to Experience Improved Access to
                       Toll-Free Telephone Service During the 2005 Filing Season



Taxpayers waited longer to receive services and abandoned the calls more often

For the 2005 Filing Season, assistors answered 14.8 million calls, approximately 4.3 million
were tax law calls and 9.3 million were account-related calls. The remaining 1.2 million calls
answered were classified in other categories. While the IRS did achieve its Level of Service
goal, several performance measures declined during the 2005 Filing Season. For example, the
percentage of taxpayers that received services within 30 seconds (Assistor Response Level)
declined, and the average number of seconds taxpayers waited in the queue before receiving
services (Average Speed of Answer) increased. In addition, the rate in which the taxpayer who
navigated the automated menu and then disconnected while waiting to speak to an assistor
(Secondary Abandon Rate) increased from the 2004 Filing Season. However, the Transfer Rate18
has remained fairly constant over the last three filing seasons. Figure 9 shows a comparison of
these measures for the last four filing seasons.

                  Figure 9: Comparison of Various Performance Measures
                             for the 2002–2005 Filing Seasons19

                                              Tax Law Calls                              Account Calls
 CAS Toll-Free
                                   2002       2003       2004      2005       2002       2003       2004      2005
 Average Speed of
 Answer (seconds)                    160        196       165      190          293        138       206      301
 Assistor Response Level           70.1% 56.9% 63.9% 50.9% 43.8% 56.9% 44.1% 21.4%
 Secondary Abandons                11.1% 10.3%           7.0%      8.5%       15.6%       6.7%      10.4% 13.9%
 Transfer Rate                     38.9% 30.0% 25.5% 25.5% 12.4% 11.1% 10.2% 10.8%
Source: IRS Enterprise Telephone Data Warehouse.

In comparison with prior years, the data in Figure 9 shows:
     •   Taxpayers with tax law questions had a slightly longer wait time (25 seconds) in the
         2005 Filing Season before reaching an assistor for service than in the 2004 Filing Season.
         However, for taxpayers with account questions, the wait time was 301 seconds before
         they received service by assistors. This was 1 minute and 35 seconds (46 percent
         increase) longer in the 2005 Filing Season than in the 2004 Filing Season. This is the
         longest period during the last four filing seasons that taxpayers had to wait to speak to an


18
  The Transfer Rate compares the number of calls transferred by assistors to the number of calls handled.
19
  Due to changes in the methodology the IRS used to capture toll-free data, the totals for previous filing seasons in
this chart may not equal the totals presented in previous Treasury Inspector General for Tax Administration reports.
                                                                                                            Page 12
                          Taxpayers Continued to Experience Improved Access to
                         Toll-Free Telephone Service During the 2005 Filing Season



           assistor for service with their accounts. However, per the IRS Oversight Board Survey,
           individuals surveyed were willing to wait an average of 8 minutes to speak to an assistor.
       •   Over half of the taxpayers with tax law questions received assistor service within
           30 seconds of waiting. However, for taxpayers with account questions only 21 percent
           received assistor service within 30 seconds. The percentage of taxpayers receiving
           service within 30 seconds has declined over the last 2 filing seasons.
       •   The percentage of taxpayers with tax law and account questions that hung up while
           waiting for assistor service has increased by 1.5 percentage points (21 percent) and
           3.5 percentage points (34 percent), respectively. This means that during the
           2005 Filing Season, more taxpayers became tired of waiting and hung up.
Taxpayers with tax law and account questions are being transferred when reaching an assistor at
approximately the same rate in the 2005 Filing Season as in the 2004 Filing Season. Reducing
call transfers lowers burden by having taxpayers spend less time on the telephone. The IRS’ cost
to handle a call is also lowered when the call is completed by the first assistor it is sent to rather
than transferred.

Customer satisfaction surveys continued to show positive results

From January through March 2005, 95 percent of the taxpayers who called the IRS toll-free
telephone system and completed customer satisfaction surveys regarding their experience gave
the IRS a rating of 4 (mostly satisfied) or 5 (completely satisfied) on a 5-point scale.20 The
overall satisfaction rating was 4.68. Only 2 percent of the taxpayers were dissatisfied (i.e., gave
a rating of 1 or 2). This is the second survey that reflects the overall satisfaction rating for all
toll-free telephone customers since the Small Business/Self-Employed Division and the Wage
and Investment Division merged at an organizational level on October 1, 2004. These ratings are
the same as the previous period (October through December 2004).
According to the Customer Satisfaction Survey, to increase taxpayer satisfaction with the
toll-free telephone program, the IRS should focus improvement efforts on the following:
(1) Time to Get Through to the IRS; (2) After You Reached a Representative, Time to Complete
Call; and (3) Ease of Understanding Automated Answering System Menu and Instructions.
These are the top three improvement priorities for all toll-free telephone customers.
Taxpayers calling the toll-free telephone assistance lines request a more user-friendly automated
answering system. Taxpayers comment that the menu options are inappropriate, vague, and
excessive. They express a desire to spend less time on hold and experience fewer transfers.
Taxpayers also request that IRS assistors have the knowledge to answer their questions


20
     The only taxpayers surveyed were a sample of those that completed their interaction with the IRS.

                                                                                                         Page 13
                    Taxpayers Continued to Experience Improved Access to
                   Toll-Free Telephone Service During the 2005 Filing Season



accurately and efficiently. The IRS uses these surveys to track taxpayer satisfaction with the
CAS Toll-Free telephone program’s progress over time and to identify what CAS Toll-Free
telephone staff and managers can do to improve customer service.




                                                                                          Page 14
                    Taxpayers Continued to Experience Improved Access to
                   Toll-Free Telephone Service During the 2005 Filing Season



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall audit objective of this review was to evaluate the customer service toll-free telephone
access during the 2005 Filing Season. To accomplish this objective, we
I.     Evaluated the Internal Revenue Service’s (IRS) preparation for the toll-free telephone
       system for the 2005 Filing Season (the period from January through mid-April when
       most individual income tax returns are filed).
       A. Analyzed the IRS’ planning documents for references to toll-free telephone access.
       B. Identified any new tax law legislation passed during Calendar Year 2004.
       C. Reviewed the United States Individual Income Tax Return (Form 1040) instruction
          booklet and Your Federal Income Tax for Individuals (Publication 17) to determine
          the accuracy of published toll-free telephone numbers.
       D. Determined the process used to develop the workplans for the 2005 Filing Season.
II.    Determined whether the IRS implemented any new operational processes to improve
       taxpayer access to the toll-free telephone system for the 2005 Filing Season.
III.   Determined the process used to monitor call volumes and respond to any unanticipated
       changes in call patterns or problems taxpayers experienced accessing the toll-free
       telephone system.
       A. Attended biweekly executive status meetings held by the IRS for the toll-free
          telephone program.
       B. Reviewed application availability reports (call site staffing requirements) and
          workplans to compare forecasted call volumes to actual call volumes per product line
          and application and to determine whether stated goals were met.
IV.    Determined whether the toll-free telephone program achieved its 2005 Filing Season
       goals by reviewing the performance measures and indicators. This included comparing
       the 2005 Filing Season performance to prior filing seasons.
V.     Followed up on IRS’ planned corrective actions in response to recommendations made in
       prior Treasury Inspector General for Tax Administration filing season reports.




                                                                                           Page 15
                   Taxpayers Continued to Experience Improved Access to
                  Toll-Free Telephone Service During the 2005 Filing Season



                                                                              Appendix II

                 Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Frank W. Jones, Audit Manager
Jack Forbus, Lead Auditor
Jean Bell, Auditor
Sylvia Sloan-Copeland, Auditor




                                                                                         Page 16
                  Taxpayers Continued to Experience Improved Access to
                 Toll-Free Telephone Service During the 2005 Filing Season



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Acting Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Acting Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Acting Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                  Page 17
                          Taxpayers Continued to Experience Improved Access to
                         Toll-Free Telephone Service During the 2005 Filing Season



                                                                                  Appendix IV

                      Customer Account Services
         Toll-Free Telephone Service Individual Product Lines
                 for the 2004 and 2005 Filing Seasons

                                           Average
                           Assistor        Speed of                                            Level of
                          Answered         Answer       Primary            Secondary           Service
                            Calls         (Seconds)     Abandons           Abandons          (Percentage)
   Product Lines        2004     2005     2004 2005   2004     2005      2004       2005     2004    2005
Individual Income
                        7.3 M    7.1 M    188   243   2.8 M    2.0 M     1.1 M      1.1 M     82.9   82.9
Tax Services
Business & Specialty
                        1.9 M    1.9 M    120   197 459,784 440,401 191,268 308,428           89.0   84.5
Tax Services
Refund Hotline         101,821 717,890    239   347   1.8 M    1.6 M     28,809 179,989       35.3   76.7
Business Master File
                       699,988 628,455    101   221   57,343   51,445    57,124 101,278       91.6   85.4
Customer Response
Small Business/
Self-Employed
Individual Master      828,330 759,301    168   259 218,461 169,598      78,778 113,887       90.6   84.5
File Customer
Response
Wage & Investment
Individual Master
                        1.7 M    1.4 M    219   291 538,248 376,929 251,278 272,031           86.5   80.1
File Customer
Response
Refund Call Back        2.7 M    1.7 M    256   381 427,866 306,826 388,647 372,706           86.8   75.6
Special Services        13,879   21,389   176   140    1,288       438    1,204      1,489    88.8   91.7
Telecommunications/
                      1,092     827       164   206 231,873 233,737        421        450     36.6   31.7
Teletype
National Taxpayer
                     76,864 64,572         87   183 117,267    66,592     9,051     13,763    87.1   79.7
Advocate
Criminal
                    174,125 170,324       231   275   52,449   52,679    25,329     29,417    75.4   62.4
Investigation

                                                                                           Page 18
                                  Taxpayers Continued to Experience Improved Access to
                                 Toll-Free Telephone Service During the 2005 Filing Season




                                                       Average
                                   Assistor            Speed of                                                        Level of
                                  Answered             Answer             Primary                  Secondary           Service
                                    Calls             (Seconds)           Abandons                 Abandons          (Percentage)
   Product Lines               2004        2005      2004 2005         2004        2005          2004       2005     2004    2005
Practitioner Priority
                              260,098 280,048           89     102     22,510      27,497        15,100     18,274    94.1   93.1
Service
Taxpayer Assistance
Center – Customer              11,452       5,931       88      29         482          17        2,145       313     80.6   93.8
Account Services
Volunteer Income
                               15,123      15,263      145     145         300        553         2,047      1,819    87.2   87.7
Tax Assistance
International                  34,172      52,251      122     177     16,014      22,220         1,759      3,920    95.1   90.8
International
Employer
Identification                 12,077      12,553      177     189      8,851       6,334         1,359      1,322    81.3   89.5
Number
Advanced Child Tax
                                   525                   4                  15                          5             98.3
Credit1
Totals2                        15.9 M     14.8 M                        6.7 M       5.3 M        2.2 M      2.5 M
Source: Internal Revenue Service Enterprise Telephone Data Warehouse.




         1
             The Advanced Child Tax Credit Product Line was discontinued for Fiscal Year 2005.
         2
             The individual product line totals will not sum to Totals because of rounding.

                                                                                                                   Page 19
      Taxpayers Continued to Experience Improved Access to
     Toll-Free Telephone Service During the 2005 Filing Season



                                                     Appendix V

Management’s Response to the Draft Report




                                                           Page 20
 Taxpayers Continued to Experience Improved Access to
Toll-Free Telephone Service During the 2005 Filing Season




                                                      Page 21
